UNSWORN DECLARATION OF UNDER PENALTY OF PERJURY
Wendy Alison Nora declares, under penalty of perjury of the laws of the
United States of America, pursuant to 28 U.S.C. sec. 1746, that the facts set forth
above are true of her own personal knowledge, except where stated upon
information or belief and where stated upon information or belief, she believes those
statements to be true.
AN IMAGE OF THE SIGNATURE BELOW SHALL HAVE THE SAME FORCE AND
EFFECT AS THE ORIGINAL

Wendy Alison Nora
UNSWORN DECLARATION OF SERVICE
Wendy Alison Nora declares, under penalty of perjury, that she directed that
the foregoing Motion be served on Director Susan M. Hummiston and Assistant
Director Nicole S. Frank of the Minnesota Office of Lawyer Professional
Responsibility at their address of record in the proceedings by UPS delivery on
October 24, 2019.
AN IMAGE OF THE SIGNATURE BELOW SHALL HAVE THE SAME FORCE AND
EFFECT AS THE ORIGINAL

Wendy Alison Nora

15

